        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Special Report
Management Challenges at the
Department of Energy




DOE/IG-0832                      December 2009
                              Department of Energy
                                Washington, DC 20585

                                   December 11, 2009


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                  INFORMATION: Special Report on "Management Challenges at the
                          Department of Energy"

BACKGROUND

Responsible for some of the Nation's most important and technically advanced missions, the
Department of Energy faces an array of challenges that are more wide-ranging and complex than
at any time in its history. While its origins can be largely traced to the Manhattan Project, the
Department has evolved into a multi-faceted agency that encompasses a broad range of
scientific, environmental, and national security activities. Since its creation under the
Department of Energy Organization Act in 1977, the Department has shifted its emphasis and
priorities over time as the energy and security needs of the Nation have changed. The
Department has recently refocused these efforts, adding particular emphasis on the science and
renewable energy components of its portfolio. In this regard, the Department has taken a lead
role in the implementation and execution of the energy technology initiatives related to the
American Recovery and Reinvestment Act of 2009 (Recovery Act).

As a means of accomplishing these initiatives, the Department received a substantial increase in
its annual appropriation, rising from nearly $25 billion in 2008 to approximately $34 billion in
2009 as a result of additional funding in the Department's loan program and numerous science,
energy, and national security initiatives. In addition, the Department was provided more than
$36 billion in Recovery Act funding to be used over a two to three year period. Further, the
Department, through existing authorities and those expanded by the Recovery Act, has been
authorized to provide more than $100 billion in loan guarantees for innovative, clean energy
technologies. To accomplish its vital missions, the Department employs approximately 115,000
Federal and contractor personnel and manages assets valued at more than $189 billion, including
the 17 national laboratories at the heart of its science program.

On an annual basis, the Office of Inspector General is required to identify what it considers to be
the most significant management challenges facing the Department. Our effort addresses new or
emerging issues and evaluates the Department's progress in resolving previously identified
challenges. The challenges identified by this process represent risks inherent in the Department's
wide ranging and complex operations, as well as those related to problems with specific
management processes. As noted in past reports, we recognize that often these challenges cannot
be resolved in a single year and must, therefore, be addressed through a concentrated, persistent
effort over time. Consistent with our mission, the overall goal is to focus attention on significant
issues with the objective of working with Department managers to enhance the effectiveness of
agency programs and operations.

RESULTS

During the past year, the Department has taken a number of actions to promote its ongoing
strategy of resolving the management challenges identified in our prior reports. There have been
many notable advances. However, in our judgment, on the basis of the results of our work
during the past year and other risk assessment tools, the following management challenges
remain for Fiscal Year (FY) 2010:

   •   Contract Administration
   •   Cyber Security
   •   Energy Supply
   •   Environmental Cleanup
   •   Safeguards and Security
   •   Stockpile Stewardship

In addition, we have identified a "watch list," consisting of issues that do not currently meet our
threshold of being classified as management challenges, but warrant continued attention by
Department management. This year, the watch list includes: Infrastructure Modernization and
Worker and Community Safety. As noted above, the basis for these challenges is formed, in
large part, from the reports we have issued over the past year, which can be viewed at:
http://www.ig.energy.gov/.

As with a number of Federal agencies, the Department received an unprecedented infusion of
funds as a result of the Recovery Act. These funds, along with the overarching goals set forth in
the Act, were transformative in nature. On a positive note, the Department and its staff have
been energized by the new and evolving programmatic initiatives resulting from the Recovery
Act. However, as would be expected in an effort of this magnitude, the Department has
experienced significantly increased management stresses and strains, impacting virtually every
program and operation. In fact, the essentially unavoidable burden placed on existing human
capital and other resources has, in our judgment, affected the Department's ability to resolve its
existing management challenges, at least in the near term. To capture these emerging factors, as
part of this report, we have added two additional Departmental management challenges:

   •   Recovery Act Implementation
   •   Human Capital Management

                                    Recovery Act Implementation

Signed by the President on February 17, 2009, the Recovery Act seeks to strengthen the U.S.
economy through the creation of new jobs, aiding State and local governments with budget
shortfalls, and investing in the long-term health of the Nation's economic prosperity. Intended to
have an immediate stimulative impact, the Department's stated goal is to ensure that these funds



                                             2
are spent as expeditiously as possible. This effort, along with the necessity of providing effective
management in subsequent years, represents a substantial increase in workload for virtually all
Department programs and will undoubtedly strain existing resources.

In addition to injecting a significant amount of funding into Department programs, the
requirements for agencies to implement unprecedented levels of transparency and accountability
will present challenges that even the most well-managed programs may find daunting. Under
these circumstances and based on past experience, we identified a number of activities that need
to be closely managed to help ensure that they satisfy Recovery Act goals. These areas include
funding accountability and reporting, awarding and monitoring of grants and cooperative
agreements, contract management, and management of loan programs.

Shortly after the signing of the Recovery Act, the Office of Inspector General issued a report
entitled, "The American Recovery and Reinvestment Act and the Department of Energy"
(http://www.ig.energy.gov/documents/OAS-RA-09-01-New508-G.pdf), the primary aim of
which was to provide the Department with "lessons learned" and risks that should be considered
as activities progressed. Our review outlined the immediate impact that the Recovery Act would
have on the inherent risks associated with operating the Department's sizable portfolio of
missions and activities. If these challenges are to be met successfully, all levels of the
Department's structure and its many constituents, including the existing contractor community;
the national laboratory system; state and local governments; community action groups and
literally thousands of other contract, grant, loan and cooperative agreement recipients throughout
the Nation will have to strengthen existing or design new controls to safeguard Recovery Act
funds.

A subsequent review revealed that the Department had taken a number of positive and proactive
steps designed to help ensure that Recovery Act funds were properly managed. While the
internal controls detailed in our "Special Report on the Department of Energy's Efforts to Meet
Accountability and Performance Reporting Objectives of the American Recovery and
Reinvestment Act" (http://www.ig.energy.gov/documents/OAS-RA-09-04.pdf) were promising,
we found that additional identified actions and sustained effort are necessary to ensure that the
Department can satisfy all reporting, transparency, and accountability requirements. In
particular, at the time of our review, reporting systems capacity and accuracy had not been
verified, recipient reporting capabilities had not been determined, job creation estimating
methods had not been coordinated across all programs, and a significant portion of Recovery Act
performance measures were not quantifiable.

Most recently, in a report entitled "Selected Department of Energy Program Efforts to Implement
the American Recovery and Reinvestment Act" (http://www.ig.energy.gov/documents/OAS-RA-
10-03.pdf), the Office of Inspector General sought to determine whether the Department's major
program elements had developed an effective approach for identifying and mitigating risks
related to achieving the goals and objectives of the Recovery Act. We recognized that the
Department had initiated a number of efforts to help ensure that it achieves the transparency and
accountability objectives of the Recovery Act. In particular, the Department is actively involved
in identifying program and activity-specific risks and has developed plans to address those risks.
In addition, the Department developed program and project-level operating plans for each of its



                                             3
major program elements detailing its risk mitigation strategies, internal controls, performance
measures, and methods for the collection and reporting of data. As with our previous reports in
this critical area, additional effort is necessary to help ensure that all funds are properly and
promptly obligated and expended for their intended purposes.

The Recovery Act will undoubtedly continue to have a significant impact on the operations and
activities of the Department and, in turn, the Office of Inspector General. The passage of this
legislation makes this an eventful period for the Department, particularly in the area of scientific
discovery and innovation. Given the importance of the Recovery Act's initiatives and the sheer
amount of funding provided, the successful implementation and management of the Recovery
Act is of paramount importance and represents a significant management challenge for the
foreseeable future.

                                    Human Capital Management

For a number of years, strategic management of human capital has been recognized by various
government authorities and oversight organizations as one of the Government's most glaring
problems. In the past, officials have recognized that the Department's staff lacked adequate
project and contract management skills required to oversee large projects. Subsequently, the
Department undertook an effort to perform a critical skills gap analysis to review and evaluate
specific needs. These actions led to our removal, in FY 2009, of the human capital focus area
from our management challenges. With the passage of the Recovery Act and the increased
workload associated with its implementation, the Department faces a significant workforce
deficit and must move to address the challenge of maintaining a highly skilled workforce with
the technical knowledge to perform its new and expanded mission. As such, we believe that the
risks in this area have increased substantially and that it has once again become a critical area
that will challenge all major program elements.

A specific area of concern, particularly in light of the rapid infusion of funds under the Recovery
Act, centers on the Department's acquisition workforce. As a follow-up to a September 2007
review, the Office of Inspector General issued a report in March entitled, "The Department of
Energy's Acquisition Workforce and its Impact on Implementation of the American Recovery
and Reinvestment Act of 2009" (http://www.ig.energy.gov/documents/IG-RA-09-02.pdf). The
general conclusion of our 2007 review was that the Department's budget, procurement
obligations, and the number of procurement actions had risen steadily in recent years, while the
number of contract specialists to oversee and execute these functions had remained relatively
constant. As a result of the Recovery Act and its significant impact on Department operations,
we decided to update our analysis through 2008 to determine if the size of the procurement
workforce had changed in the intervening period.

We found that since our initial review the Department had, in fact, increased the number of
contract specialists by 20 percent. However, as was the case at the time of our original review,
procurement obligations within the Department have continued to rise steadily in recent years,
increasing demands on the procurement workforce. In the environment currently facing the
Department, ensuring transparency, accountability, and high quality program management
requires the services of experienced, well-trained contract specialists. Over the last two years, the



                                              4
Department has made progress in expanding its roster of professionals in this field. We
concluded that the Department staffing efforts should continue and, in fact, be intensified. Given
the Department's almost total reliance on the acquisition process (contracts, grants, cooperative
agreements, etc.) to carry out its mission, enhanced focus on contract administration and,
specifically, the work performed by Federal acquisition officials is of vital importance as the
unprecedented flow of funds continues under the Recovery Act.

According to the Department, it will need to hire more than 5,000 new employees in the next
four years to maintain its workforce. In a number of program areas, problems with identifying,
attracting, and maintaining the staff necessary to complete Recovery Act-related functions have
been identified as significant programmatic risks. These shortages are not limited to Federal
staff, but extend to contractors and peer reviewers needed to process and evaluate the many
applications for the use of Recovery Act funds. The simple act of hiring a significant number of
new employees is a challenge in itself. Successfully acquiring the caliber of employee necessary
to accomplish the Department's diverse set of missions poses an even greater challenge. As a
result, human capital management will continue to be a significant challenge area that will, at a
minimum, require significant attention for the term of the Recovery Act program design and
execution.

Attachments

cc:    Deputy Secretary
       Under Secretary for Science
       Under Secretary for Energy
       Administrator, National Nuclear Security Administration
       Chief Financial Officer
       Chief of Staff




                                            5
                                                                           Attachment 1

     Challenge Areas and Significant Issues Reported by Various
                              Groups

        OIG Management                                          Significant Issues Identified
                                    GAO Challenge Area1
           Challenge                                                by the Department2

                                   Cleanup of Radioactive &       Environmental Cleanup
      Environmental Cleanup
                                       Hazardous Waste            Nuclear Waste Disposal
                                      Security Threats and
      Safeguards and Security                                             Security
                                           Problems

       Stockpile Stewardship       Nuclear Weapons Stockpile       Stockpile Stewardship

                                                                    Contract and Project
                                                                      Administration
      Contract Administration        Contract Management
                                                                    Acquisition Process
                                                                       Management
           Recovery Act
          Implementation

          Cyber Security                                               Cyber Security

                                     Leadership in Meeting
          Energy Supply
                                     Nation's Energy Needs

    Human Capital Management                                    Human Capital Management


         OIG Watch List

    Infrastructure Modernization    Revitalize Infrastructure

      Worker and Community
                                                                     Safety and Health
              Safety



1
 According to Major Management Challenges and Program Risks, Department of Energy
(GAO-03-100, January 2003).
2
 The Department's self-identified "Leadership Challenges" according to U.S. Department of
Energy Agency Financial Report, FY 2009 (November 2009).



                                             6
                                                                              Attachment 2


                    Relevant Reports Issued in Fiscal Year 2009

Recovery Act Implementation

   •   Audit Report on "Department of Energy Efforts to Meet Accountability and Performance
       Reporting Objectives of the American Recovery and Reinvestment Act," (OAS-RA-09-
       04, September 4, 2009).
   •   Audit Report on "Department of Energy Efforts to Manage Information Technology
       Resources in an Energy-Efficient and Environmentally Responsible Manner," (OAS-RA-
       09-03, May 27, 2009).
   •   Special Report on "The Department of Energy's Acquisition Workforce and its Impact on
       Implementation of the American Recovery and Reinvestment Act," (IG-RA-09-02,
       March 30, 2009).
   •   Special Report on "The American Recovery and Reinvestment Act at the Department of
       Energy," (OAS-RA-09-01, March 20, 2009).

Contract Administration

   •   Inspection Report on "Yucca Mountain Purchase Card Programs," (INS-O-09-04,
       August 20, 2009).
   •   Audit Letter Report on "Revenue Sharing at the Great Plains Synfuels Plant," (OAS-L-
       09-13, July 24, 2009).
   •   Audit Letter Report on "Implementation of the Cooperative Audit Strategy by National
       Nuclear Security Administration Managed Contractors," (OAS-L-09-11, July 23, 2009).
   •   Audit Letter Report on "Closure of Subcontracts at the Oak Ridge National Laboratory
       and East Tennessee Technology Park," (OAS-L-09-10, June 24, 2009).
   •   Audit Letter Report on "Audit of Closure of Subcontracts at the Savannah River Site,"
       (OAS-L-09-09, June 24, 2009).
   •   Audit Report on "The Audit of National Security Technologies, LLC Costs Claimed
       under Department of Energy Contract No. DE-AC52-06NA25946 for Fiscal Year 2007,"
       (OAS-FC-09-01, May 18, 2009).
   •   Audit Report on "Management Controls over the Use of Service Contracts at the Office
       of River Protection," (OAS-M-09-02, April 29, 2009).
   •   Audit Letter Report on "Review of the Department of Energy's Contract with AHTNA
       Government Services Corporation Contract No. DE-AC52-04NA25282," (OAS-L-09-01,
       October 30, 2008).

Cyber Security

   •   Audit Report on "The Management of the National Nuclear Security Administration's
       Classified Enterprise Secure Network Project," (IG-0823, September 11, 2009).


                                             7
   •   Audit Report on "Protection of the Department of Energy's Unclassified Sensitive
       Electronic Information," (IG-0818, August 4, 2009).
   •   Audit Report on "Cyber Security Risk Management Practices at the Bonneville Power
       Administration," (IG-0807, December 9, 2008).
   •   Audit Report on "Cyber Security Risk Management Practices at the Southeastern,
       Southwestern, and Western Area Power Administrations," (IG-0805, November 20,
       2009).

Energy Supply

   •   Audit Report on "Bonneville Power Administration's Acquisition of Transmission-
       Related Materials and Equipment," (IG-0824, September 29, 2009).
   •   Audit Report on "Management of Energy Savings Performance Contract Delivery Orders
       at the Department of Energy," (IG-0822, September 10, 2009).
   •   Audit Report on "The Department of Energy's Opportunity for Energy Savings Through
       the Use of Setbacks in its Facilities," (IG-0817, July 20, 2009).
   •   Audit Letter Report on "Controls over Royalty Oil Exchanges," (OAS-L-09-07, April 30,
       2009).
   •   Audit Report on "The Department of Energy's Loan Guarantee Program for Innovative
       Energy Technologies," (IG-0812, February 17, 2009).

Environmental Cleanup

   •   Audit Letter Report on "Mixed Low-Level Waste Disposal within the Department of
       Energy," (OAS-L-09-17, September 28, 2009).
   •   Audit Report on "Potential Uses for Depleted Uranium Oxide," (IG-0810, January 9,
       2009).

Human Capital Management

   •   Inspection Letter Report on "Allegations of Improper Hanford Workers' Compensation
       Payments," (INS-L-09-07, August 27, 2009).
   •   Audit Letter Report on "Contractor Severance Plans at the Department of Energy,"
       (OAS-L-09-04, February 12, 2009).

Safeguards and Security

   •   Inspection Report on "Lawrence Livermore National Laboratory Protective Force
       Authority," (IG-0820, September 4, 2009).
   •   Inspection Report on "Personal Property Management at Lawrence Livermore National
       Laboratory," (INS-O-09-03, May 28, 2009).
   •   Inspection Letter Report on "Security Weakness in the Handling of Unclassified Printers
       and Copiers at the Oak Ridge National Laboratory," (INS-L-09-06, May 22, 2009).
   •   Audit Report on "Office of Secure Transportation DC-9 Aircraft Refurbishment," IG-
       0815, May 6, 2009).



                                              8
   •   Inspection Letter Report on "Selected Aspects of the Department of Energy's Activities
       Involving the Foreign Intelligence Surveillance Act," (INS-L-09-05, May 6, 2009).
   •   Inspection Report on "Internal Controls over Accountable Classified Removable Media
       at Oak Ridge National Laboratory," (INS-O-09-02, April 30, 2009).
   •   Inspection Letter Report on "Y-12 National Security Complex Accountable Classified
       Removable Electronic Media Program," (INS-L-09-03, March 16, 2009).
   •   Audit Report on "The Department's Management of Nuclear Materials Provided to
       Domestic Licensees," IG-0813, February 18, 2009).
   •   Audit Report on "Management Controls over the Department's Excess Weapons
       Inventories and Selected Sensitive Equipment used by Protective Forces," (OAS-M-09-
       01, January 22, 2009).
   •   Inspection Report on "Pantex Laser Perimeter Awareness," (IG-0809, January 2009).
   •   Inspection Report on "Security Clearances at Lawrence Livermore National Laboratory
       and Sandia National Laboratory," (INS-O-09-01, December 11, 2008).
   •   Inspection Report on "40 MM Grenade Launcher Qualification Requirements at
       Department of Energy Sites," (IG-0806, November 25, 2008).
   •   Inspection Letter Report on "Department of Energy Activities Involving the President's
       Surveillance Program," (INS-L-09-01, November 6, 2008).
   •   Audit Summary Report on "The National Nuclear Security Administration's Use of
       Innovative Technologies to Meet Security Requirements," (OAS-L-09-02, October 31,
       2009).

Stockpile Stewardship

   •   Audit Letter Report on "Follow-Up Audit of the Stockpile Surveillance Program," (OAS-
       L-09-16, August 20, 2009).
   •   Audit Letter Report on "Storage Capacity at the Pantex Plant," (OAS-L-09-02,
       January 30, 2009).
   •   Inspection Summary Report on "Issues Related to the Production of Components for the
       W76 Weapon," (November 2008).
   •   Audit Report on "The Resolution of Significant Finding Investigation
       Recommendations," (IG-0804, November 18, 2008).

Worker and Community Safety

   •   Inspection Report on "Fire Suppression and Related Services at Los Alamos National
       Laboratory," (IG-0821, September 11, 2009).
   •   Audit Report on "Fire Protection Deficiencies at Los Alamos National Laboratory," (IG-
       0816, June 23, 2009).
   •   Audit Report on "The Procurement of Safety Class/Safety Significant Items at the
       Savannah River Site," (IG-0814, April 23, 2009).




                                              9
                                                             IG Report No. DOE/IG-0832


                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:
1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?
2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?
3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?
4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?
5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date ____________

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:
                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones, (202) 253-2162 or
Felicia.Jones@hq.doe.gov.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
Internet at the following address:


                U.S. Department of Energy Office of Inspector General Home Page

                                     http://www.ig.energy.gov

                 Your comments would be appreciated and can be provided on the
                        Customer Response Form attached to the report.
